Audit Report



Return to the USDOJ/OIG Home Page




Office of Justice Programs, Office for Victims of Crime, Crime Victim Compensation for 9/11 Attack on America Grant Awarded to California Victim Compensation and Government Claims Board, Grant Number 2002-RF-GX-0002, Sacramento, California

Report No. GR-90-04-017


September 2004 
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Crime Victim Compensation for 9/11 Attack on America (9/11 Program) grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office for Victims of Crime (OVC) to the California Victim Compensation and Government Claims Board (the Board) located in Sacramento, California.  The purpose of this grant was to provide funds to the State of California for victim compensation to the victims of the 9/11 Attack on America.

As of April 23, 2002, the Board was awarded a total of $200,000 to provide counseling for victims of the September 11, 2001, attacks, as well as their families and crisis responders.  We tested the Board's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Our audit found that there were significant internal control issues related to the grant.  In addition, we found transactions that were inadequately supported or were un-allocable.  As a result, we question $74,419 in grant funds received.1   In brief we found:

The Board commingled funds of three grants in one general ledger account.

	The Board could not support the $65,695 in personnel costs assessed against the grant.

	The Board claimed reimbursement for $8,724 in expenditures that were not grant-related.
	
	The Financial Status Reports were inaccurate, and were not submitted in a timely manner.  

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.




Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.